   Report No. D-2007-070      March 12, 2007




          Force Structure Changes in the
U.S. Pacific Command - Roles and Responsibilities
     of Headquarters and Support Functions
Date: March 12, 2007
Report No. D-2007-0070
    (Project No. D2006-D000LA-0124.003)

Operations, Plans and Requirements, U.S. Air Force on the recommendation were
nonresponsive. While we commend the U.S. Air Force for continuing to implement the
vision and strategy set forth in the Quadrennial Defense Review, the intent of our report
is to further identify opportunities for streamlined command and control, the efficient use
of human resources, and support for the warfighter. We request that the Director
reconsider his position and provide additional comments on the report by April 12, 2007.
Additionally, we request the Director to clarify whether he is responding on behalf of
Pacific Air Forces and 5th Air Force. Lastly, we request the Commander, Pacific Air
Forces and Commander, 5th Air Force provide separate comments on the report by
April 12, 2007.
The Deputy Chief of Staff, U.S. Forces Korea concurred, with comments, on the
recommendation. The Deputy Chief of Staff stated that U.S. Forces Korea intends to
issue a draft overarching plan during the second quarter FY 2007, which will integrate
support for the command and agency transformation plan into the overall U.S. Forces
Korea. The plan will be in addition to regularly recurring focus sessions by Commander,
U.S. Forces Korea to review the ongoing transformation and provide guidance on
planning for the transformation.
Although not required to comment, the Deputy Director for Strategic Planning and
Policy, U.S. Pacific Command concurred with the recommendations, stating that the
command will support U.S. Forces Korea with planned force reductions and
transformation plans. The Deputy Director also stated that a manpower analysis of
U.S. Forces Japan and the 5th Air Force is warranted and requested that final manpower
requirements for U.S. Forces Japan be coordinated with the U.S. Pacific Command J1,
Manpower Policy and Oversight to make U.S. Forces Japan ready to meet theater and
warfighting missions. As a result of management comments, we redirected
Recommendation 2 to include coordination with U.S. Pacific Command.
Although not required to comment, the Chief of Staff, U.S. Army Installation
Management Command, responding for Installation Management Command - Korea 1 ,
stated that the Installation Management Command generally agreed with the
recommendation to the Commander, U.S. Forces, Korea although he expressed some
disagreement with the observation and methodology of the report. The Chief of Staff
stated that the Installation Management Command - Korea is developing a transformation
plan that corresponds and supports the U.S. Forces Korea transformation plan. We
request that the Chief of staff provide us with this transformation plan when issued in the
2nd quarter of FY 2007.
The Commander, U.S. Forces Japan did not comment on the recommendation. We
request that the Commander, U.S. Forces Japan provide comments on the report by
April 12, 2007.




1
    Formerly the U.S. Army Installation Management Agency, Korea Regional Office (KORO).
                                                 2
Date: March 12, 2007
Report No. D-2007-0070
    (Project No. D2006-D000LA-0124.003)


Results and Effect on Operations

The USPACOM and the Services had not reduced or eliminated redundancies and
unnecessary roles and functions that were the result of force reductions, installation
closures, and restructured command and control functions that may have eliminated the
need for some headquarters and support functions. Eliminating unnecessary functions
will benefit USPACOM and the Services by providing more effective command and
control, use of human resources, and support to the warfighter. USPACOM, in
conjunction with its subunified commands and the Services, needs to validate the
requirement for headquarters and support functions within the subunified commands’
areas of operations.
________________________________________________________________________

Background

DoD is reshaping the defense environment and developing a 21st century total force.
U.S. forces are becoming more agile and capable of rapid action and are exploiting
information advantages to increase operational effectiveness. As stated in the
“Quadrennial Defense Review Report,” February 6, 2006, headquarters organizations,
such as USPACOM and its subunified commands, 2 and processes that support U.S.
forces must develop similar attributes. DoD must align its culture, authorities, and
organizations to facilitate effective decision-making and enable responsive mission
execution while maintaining accountability. Reducing vertical structures and processes
and improving horizontal integration are keys to successful DoD transformation. DoD
must undertake reforms to reduce redundancies and improve the flow of business
processes.

Audit Results
As USPACOM and the Services restructure their forces in the Pacific to meet
transformation goals, they should work jointly to streamline support and headquarters
functions.
Setting the Forces in Korea. As U.S. Forces Korea (USFK) restructures, realigns, and
reduces its forces, it must restructure support functions accordingly. Beginning in 2004,
the governments of the United States and Republic of Korea agreed to reduce U.S. forces
in Korea from 37,500 to 25,000 personnel (12,500) by 2008 and realign the remaining
forces to two areas south of Seoul. As of May 2006, the USFK reduced its force by
9,154 personnel. The USFK plans to close 59 installations and sites on 36,000 acres by
the end of 2008. As of December 2005, the USFK closed 31 installations and sites on
11,000 acres of land. As the USFK Commander stated before the Senate Armed Services
Committee on March 7, 2006, the reduction principally affects the Eighth U.S. Army,
which is reducing its force by 40 percent. The negotiated reduction, however, does not
2
USPACOM has three subunified commands: U.S. Forces, Japan; U.S. Forces, Korea; and the Alaskan
Command.
                                              3
Date: March 12, 2007
Report No. D-2007-0070
    (Project No. D2006-D000LA-0124.003)

include supporting units and commands that are not under the operational or
administrative control of USFK.
Supporting Commands. Some units and commands stationed in Korea support USFK
but have a different chain of command. For example, the regional U.S. Army Installation
Management Agency provides operations support for the Eighth U.S. Army. The
Installation Management Agency was created in 2002 to reduce bureaucracy and apply a
uniform business structure to manage U.S. Army installations. The Installation
Management Agency has seven regional offices, 3 one of which is the Korea Regional
Office (KORO). The KORO mission is to support readiness and mission execution and
the well-being of soldiers, civilians and family members, improve infrastructure, and
preserve the environment. Working in direct support of the Eighth U.S. Army, KORO
manages Army installations in Korea equitably, effectively, and efficiently. KORO,
however, reports directly to Installation Management Agency headquarters in Arlington,
Virginia.
KORO headquarters has four area support organizations designated as Areas I, II, III, and
IV. The KORO Table of Distribution and Allowances for FY 2007 shows authorized
personnel of 4,051 for the four KORO areas. If personnel assigned to KORO
headquarters are included, the authorized personnel strength will increase to 4,570.
Between 2004 and 2005, the Army transformed from supporting 30,000 soldiers at
100 camps and stations to supporting 20,846 soldiers at fewer than 81 camps and stations
in Korea. Changes planned through 2008 will result in 18,000 soldiers stationed at
48 camps and stations centered around two hubs. The Eighth U.S. Army reduced the
number of active duty personnel in Korea by more than 8,000 troops and closed 19 of the
36 KORO installations as planned. According to KORO officials, the 19 installations are
part of Area I Support Activity and are in caretaker status that requires minimum utilities
and contracted guard services. KORO had not, however, reduced manpower
authorizations to reflect the reduction in the number of forces supported and installations
closed (see table).
                             KORO Personnel Levels Compared to the
                               Reduction of Forces by Fiscal Year
                                   2003              2004 / 2005                      2006
       Forces Reduced                0                 8,0001                        1,1542
       Installations
                                      0                    19                           0
       Closed
       KORO Area I                 1,386            1,673 / 1,685                    1,638
       TDA
       1
        Eighth U.S. Army force reductions were primarily 2nd Infantry Division forces located in Area I.
       2
        As of May 2006.




3
    Northwest, Southeast, Southwest, Northeast, Europe, Pacific, and Korea regional offices.
                                                     4
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)

KORO officials stated that they took on additional missions as Eighth U.S. Army troops
moved out of Korea. For example, KORO officials stated that the command is involved
with the environmental cleanup of closed installations. Those officials stated that
although KORO was experiencing an initial increase in personnel, they had not
developed a plan that would transform the command comparably with the transformed
Army forces and supported installations. For USFK to remain on schedule with agreed
reductions of U.S. forces in Korea, the USFK must coordinate reductions of reporting
units and other stovepipe command elements. At a minimum, supporting units should
have a plan for their forces that matches their mission.

Setting the Forces in Japan. U.S. forces in Japan are realigning and restructuring in
accordance with the agreements between the DoD and the government of Japan May 1,
2006, “United States – Japan Roadmap for Realignment Implementation.” Although
U.S. Forces Japan is a subunified command of USPACOM and 5th Air Force is a
subordinate command of Pacific Air Forces, neither has operational control of the air
wings in Japan. As U.S. forces in Japan restructure, USPACOM and U. S. Forces Japan
should work with the Pacific Air Forces to determine whether 5th Air Force personnel
could perform dual assignments to support the U. S. Forces Japan headquarters.

        Air Force Transformation. The Air Force is changing its command and control
structure. The concept of the transformation is to align the numbered Air Forces to
concentrate on warfighting and allow the Air Force Major Commands to focus on
organizing, training, and equipping personnel. The Air Force Major Commands are
Service subdivisions assigned to a major segment of the Air Force mission and are
directly subordinate to Headquarters, U.S. Air Force. Examples include Pacific Air
Forces, Air Combat Command, and Air Force Space Command. The numbered Air
Forces in the Pacific shown in the following figure, “Air Force Command and Control
Transformation in the Pacific,” are the 5th Air Force located at Yokota Air Base Japan;
the 7th Air Force located at Osan Air Base, Korea; the 11th Air Force located at
Elmendorf Air Force Base, Alaska; and the 13th Air Force located at Hickam Air Force
Base, Hawaii.

        Pacific Air Forces. The Pacific Air Forces started to implement the Air Force
transformation by developing the new warfighting headquarters, Kenny Headquarters, in
Hawaii. Under the new structure, the numbered Air Forces in the Pacific have
responsibilities provided by Pacific Air Forces. Operational control is the authority to
organize and employ the forces necessary to accomplish a mission. Administrative
control is authority for administration and support for matters not included in operational
missions. (For acronyms used in the figure, see Appendix A.)




                                           5
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)



                                    Air Force Command and Control
                                        Transformation in the Pacific
                           day-to-day
        OPCON                                                                            Warfighting HQ
                           on order                      PACOM
        ADCON


                            MARFORPAC                    PACAF     USARPAC             PACFLT    SOCPAC

                                                                              JTF
              USFK                         USFJ                                                       ALCOM



                7 AF
               AFNEA                                                       Kenney
                                             5 AF                  13 AF   HQ (P)                         11 AF


                                                                                                   Tailored
           AOC            A-Staff       A-Staff                                                      AOC       A-Staff
                                                                     AOC            A-Staff



                 Forces                     Forces        Forces                                          Forces




                              Integrity - Service - Excellence
   Source: Pacific Air Forces

        5th Air Force. The figure explains the Pacific Air Forces’ command and control
structure. As shown, the 5th Air Force does not exercise operational control over
subordinate wings. As of June 4, 2006, the 5th Air Force at Yokota Air Base, Japan
consisted of 130 personnel. Pacific Air Forces’ officials stated that they plan to establish
a detachment from Kenny Headquarters as a forward warfighting headquarters at
Yokota Air Base. The detachment will be staffed by realigning approximately 50 of the
130 personnel from the 5th Air Force unit manning document to the Kenny Headquarters
detachment unit manning document. The detachment will act as the forward element of
the warfighting headquarters for wartime operational command. The remaining
80 personnel assigned to the 5th Air Force at Yokota Air Base will continue to provide
limited administrative oversight for the three wings in Japan.

       In September 2006, Pacific Air Forces’ officials recognized that the 5th Air Force
mission was significantly diminished under the new structure and they considered
eliminating the unit. However, the Pacific Air Forces maintained the 5th Air Force at the
request of the government of Japan to continue the face-to-face communications between
the U.S. Air Force and the Japanese Air Self Defense Force.


                                                     6
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)

Dual Roles. The U. S. Forces Japan and 5th Air Force are already connected because the
Commanding General, U. S. Forces Japan is also the Commanding General, 5th Air
Force. The two entities are collocated and provide support to subordinate commands and
coordinate with their Japanese counterparts. The U. S. Forces Japan and 5th Air Force
can become the leading organizations by implementing the vision in the
2006 Quadrennial Defense Review report that advocates moving toward more joint
operations, reducing redundancies, and ensuring the efficient flow of business processes.
In the “Global Defense Posture Report to Congress,” March 30, 2006, one of the
USPACOM changes in global posture was that 5th Air Force would remain and its
personnel would also be assigned to U. S. Forces Japan. Assigning 5th Air Force
personnel also to U. S. Forces Japan would maximize the limited human resources of
both commands and result in increased combined operations.

Management Comments on the Finding and
Audit Response
U.S. Air Force Operational Plans and Joint Matters. The Director, Operational Plans
and Joint Matters, Deputy Chief of Staff, Air, Space and Information Operations, Plans
and Requirements, U.S. Air Force, stated that past, present, and future PACAF activities
were closely coordinated with U.S. Pacific Command and U.S. Forces Japan and meet
the spirit and intent of the recommendation. The Director stated that, in addition to
already realigning 110 authorizations from 5th Air Force to 13th Air Force, the Air Force
expects to eliminate 12 positions from 5th Air Force and align 47 more authorizations to
13th Air Force. After completing the realignments, Detachment 1, 13th Air Force will be
activated at Yokota to act as the forward command and control element of the numbered
Air Force. The Director also stated that the remaining 5th Air Force authorizations will
continue to provide limited administrative oversight of the three Air Wings in Japan,
continue communications with the Japanese Air Self Defense Force, and maintain
35 authorizations to support the dual-hatted Commander, 5th Air Force and Commander,
U.S. Forces Japan. The Director recommended striking the discussion in the report
concerning Pacific Air Forces previous thoughts on the future of 5th Air Force stating
this internal discussion adds no value to the DoDIG report.

The Director stated that the Air Force is serving the broader Quadrennial Defense Review
objective of jointness by consolidating theater operational command and control
capabilities into the 13th Air Force to better support the Commander, U.S. Pacific
Command throughout the region. Further, Pacific Air Forces and 5th Air Force have no
authority to review and establish joint billet requirements.

Audit Response. We commend the Air Force’s actions in continuing to implement the
vision and strategy set forth in the Quadrennial Defense Review. However, as we stated
in the report, the 2006 Quadrennial Defense Review advocates moving toward more joint
operations, reducing redundancies, and ensuring the efficient flow of business processes.
The U.S. Forces Japan and 5th Air Force can accomplish these objectives with a
manpower study to make the best use of limited human resources. The 5th Air Force is
                                           7
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)

within the Pacific Air Forces chain of command and is commanded by a dual-hatted
position with U.S. Forces Japan. Accordingly, Pacific Air Forces has the authority to
perform a manpower study to verify that the personnel requirements of the command are
congruent with the mission. The U.S. Pacific Command also believes that a manpower
analysis is warranted.

We recognize that the Pacific Air Forces and the 5th Air Force are not authorized to
establish joint billet requirements. However, they can, in close coordination with
U.S. Forces Japan and U.S. Pacific Command, identify the skill sets and positions that
would be best suited for designation as joint billets. Additionally, we request that the
Air Force provide documentation concerning the Director’s assertion that Air Force
activities past, present, and future make the recommendation unnecessary.

Further, we do not agree that the discussion concerning the Pacific Air Forces’ previous
thoughts on the future of 5th Air Force adds no value to the DoDIG report. That
discussion illustrated that the Pacific Air Forces recognized that the 5th Air Force
mission was significantly diminished under the new structure and they were considering
eliminating the unit.

U.S. Army Installation Management Command. Although not required to comment,
the Chief of Staff, U.S. Army Installation Management Command, responding for
Installation Management Command - Korea, generally agrees with the recommendation
to the Commander, U.S. Forces Korea. However, the Chief of Staff stated that the
Installation Management Command disagrees with the observation and methodology of
the report.

The Chief of Staff stated that the Installation Management Command – Korea focuses on
faces while the DoDIG methodology focused on the table of distribution and allowances
(spaces). The table of distribution and allowances does not address the changes to roles
and responsibilities that the Installation Management Command – Korea is undertaking
such as master planning, anti-terrorism planning, and law enforcement. Additionally, the
Chief of Staff stated that, with the standup of Installation Management Command –
Korea, funding has driven the management of the civilian workforce requiring
Installation Management Command – Korea to manage faces versus spaces. Correcting
the tables of distribution and allowances has been an ongoing challenge but the
Installation Management Command – Korea’s table of distribution and allowance has not
changed. However, the Chief of Staff stated that the Headquarters, Installation
Management Command intends to improve all table and distribution and allowances in
FY 2007.

Further the Chief of Staff stated that once U.S. Forces Korea transforms, the table of
distribution and allowances can be adjusted and authorizations and personnel can be
realigned within the 3 year timeframe for a command plan.

Audit Response. We appreciate the actions the Installation Management Command –
Korea is undertaking to meet the needs of the Eighth U.S. Army. However, U.S. Forces
                                           8
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)

Korea has decreased by more than 8,000 troops, the Installation Management
Command – Korea has increased its personnel levels during the same period.

Recommendations, Management Comments, and
 Audit Response
Redirected Recommendations. As a result of management comments we redirected
Recommendation 2.
1. We recommend that the Commander, U.S. Forces Korea incorporate all DoD
activities and organizations within the Korean theater of operations into the overall
force reductions and require the development of transformation plans for activities
and organizations corresponding to the needs of their mission.
U.S. Forces Korea Comments. The Deputy Chief of Staff, U.S. Forces Korea
concurred with comment, and stated that a transformation plan for U.S. Forces Korea is
being developed and estimated that the draft would be released during the second quarter
of FY 2007. The plan will include individual component, agency, activity, and
organization plans and when they will be phased into the overall transformation plan.
U.S. Forces Korea transformation is incremental and ongoing and therefore a support
command or agency may lag behind the supported command. Further, the Commander,
U.S. Forces Korea holds Focus Sessions every 3 to 4 weeks to review and provide
guidance on the transformation planning.
Audit Response. The comments are responsive and no additional comments are
required. We request that the Deputy Chief of Staff provide us with a copy of the
overarching U.S. Forces Korea transformation plan when it is released in the
second quarter of FY 2007. (See Attachment 2.)
U.S. Pacific Command Comments. Although not required to comment, the Deputy
Director for Strategic Planning and Policy, U.S. Pacific Command concurred with the
recommendation, stating that the command will support U.S. Forces Korea with planned
force reductions and transformation plans.
Audit Response. We appreciate the U.S. Pacific Command’s support afforded to
U.S. Forces Korea during the transformation. (See Attachment 3.)
U.S. Army Installation Management Command. Although not required to comment,
the Chief of Staff, U.S. Army Installation Management Command, responding for
Installation Management Command, Korea, concurs with the recommendation. The
Chief of Staff stated that the Installation Management Command – Korea is concurrently
developing a transformation plan that complements and supports the U.S. Forces Korea
transformation plan.
Audit Response. We appreciate the actions the Installation Management Command –
Korea is undertaking to develop a complementary transformation plan. We request a
copy of the Installation Management Command – Korea transformation plan when it is
issued in the 2nd quarter of FY 2007. (See Attachment 4.)

                                          9
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)

2. We recommend that the Commander, Pacific Air Forces, in coordination with
the Commander, U.S. Forces Japan, and the Commander, U.S. Pacific Command:

       a. Conduct a manpower study to determine the personnel requirements at
5th Air Force and U.S. Forces Japan, and

       b. Concurrently, identify those personnel at Headquarters, 5th Air Force
that can serve in a joint capacity with U.S. Forces Japan.

Air Force Comments. The Director, Operational Plans and Joint Matters, Deputy Chief
of Staff, Air, Space and Information Operations, Plans and Requirements, U.S. Air Force,
requested that the recommendation be eliminated from the report.
Audit Response. The comments are nonresponsive. We request that the Director,
Operational Plans and Joint Matters, Deputy Chief of Staff, Air, Space and Information
Operations, Plans and Requirements, U.S. Air Force, reconsider his position and provide
additional comments on the report by April 12, 2007.
U.S. Pacific Command Comments. Although not required to comment, the Deputy
Director for Strategic Planning and Policy, U.S. Pacific Command concurred with
comment to the recommendation stating that a manpower analysis, to determine 5th Air
Force and U.S. Forces Japan, is warranted. Additionally, the Deputy requested that final
manpower requirements for U.S. Forces Japan be coordinated with the U.S. Pacific
Command J1, who is responsible for providing manpower policy and oversight so that
the U.S. Forces Japan will be ready to meet theater and warfighting missions.
Audit Response. We appreciate the U.S. Pacific Command’s support. Based on
management comments, we redirected the recommendation to include coordination with
U.S. Pacific Command. (See Attachment 3.)



Management Comments and Action Required
The management comments from the Director, Operational Plans and Joint Matters,
Deputy Chief of Staff, Air, Space and Information Operations, Plans and Requirements,
Department of the Air Force, on the draft report are nonresponsive to the
recommendation (see Attachment 1). We request that the Director reconsider his position
and provide comments on this report by April 12, 2007. Additionally, we request the
Director to clarify whether he is responding on behalf of Pacific Air Forces and 5th Air
Force. Lastly, we request the Commander, Pacific Air Forces and Commander, 5th Air
Force provide separate comments on the report by April 12, 2007.

Management comments received from Deputy Chief of Staff, U.S. Forces Korea on the
draft report were responsive to the recommendations, and no additional comments are
required (see Attachment 2). However, we request that the Deputy Chief of Staff provide
a copy of the overarching U.S. Forces Korea transformation plan when it is released in
the second quarter of FY 2007.

                                         10
Date: March 12, 2007
Report No. D-2007-0070
    (Project No. D2006-D000LA-0124.003)


Appendix A. Acronyms Used in the Air Force
            Command and Control Diagram

    OPCON            Operational Control
    ADCON            Administrative Control
    HQ               Headquarters
    USFK             U.S. Forces Korea
    MARFORPAC        Marine Forces Pacific
    USFJ             U.S. Forces Japan
    PACAF            Pacific Air Force
    USARPAC          U.S. Army Pacific
    JTF              Joint Task Force
    PACFLT           Pacific Fleet
    SOCPAC           Special Operations Command, Pacific
    ALCOM            Alaskan Command
    AFNEA            Air Force NOTAM 4 Exchange Area
    AF               Air Force
    AOC              Air Operation Center
    A-Staff          Headquarters Staff




4
 A NOTAM is any information concerning the establishment of, condition of, or change in any aeronautical
facility, service, procedure, or hazard. The timely knowledge of which is essential to personnel concerned
with flight operations.
                                                 12
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)


Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Commander, Pacific Air Forces
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Pacific Command
Commander, U.S. Forces Korea
Commander, U. S. Forces Japan
Inspector General, U.S. Joint Forces Command

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)


Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                       14
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)


Department of the Air Force Comments




                                            Attachment 1
                                             (Page 1 of 2)
                                       15
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)




                                            Attachment 1
                                             (Page 2 of 2)


                                       16
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)


U.S. Forces Korea Comments




                                            Attachment 2
                                             (Page 1 of 3)
                                       17
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)




                                            Attachment 2
                                             (Page 2 of 3)


                                       18
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)




                                            Attachment 2
                                             (Page 3 of 3)


                                       19
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)


U.S. Pacific Command Comments




                                            Attachment 3
                                             (Page 1 of 1)
                                       20
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)


U.S. Army Installation Management Command
Comments




                                            Attachment 4
                                             (Page 1 of 4)

                                       21
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)




                                            Attachment 4
                                             (Page 2 of 4)
                                       22
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)




                                            Attachment 4
                                             (Page 3 of 4)
                                       23
Date: March 12, 2007
Report No. D-2007-0070
 (Project No. D2006-D000LA-0124.003)




                                            Attachment 4
                                             (Page 4 of 4)

                                       24
